OFFICE OF INSPECTOR GENERAL

AUDIT OF USAID/GUINEA’S
ELECTIONS AND POLITICAL
PROCESS STRENGTHENING
PROGRAM III

AUDIT REPORT NO. 7-675-14-003-P
July 31, 2014




Dakar, Senegal
Office of Inspector General


July 31, 2014

MEMORANDUM

TO:                  USAID/Guinea Mission Director, Michelle Godette

FROM:                Regional Inspector General/Dakar, Abdoulaye Gueye /s/

SUBJECT:             Audit of USAID/Guinea’s Elections and Political Process Strengthening
                     Program III (Report No. 7-675-14-003-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and included them, without attachments, in Appendix II.
The final report includes six recommendations to improve the management of USAID/Guinea’s
Elections and Political Process Strengthening Program III. In its comments on the draft
report, USAID/Guinea agreed with all six recommendations. Based on our evaluation of
management comments, we acknowledge that the mission made management decisions on
Recommendations 2, 3, 4, and 6.
Although the mission agreed with Recommendations 1 and 5, we do not acknowledge that it
made management decisions for these recommendations because actions taken did not
address them. Please coordinate final action for all recommendations with the Audit
Performance and Compliance Division in the Office of the Chief Financial Officer.
Thank you for the cooperation and courtesy extended to the audit team during this audit.




Office of the Regional Inspector General/Dakar
U.S. Embassy Building
Route des Almadies
B.P. 49 Dakar, Senegal
http://oig.usaid.gov
CONTENTS
Summary of Results .................................................................................................................1

Audit Findings ...........................................................................................................................4

     Program Was Not on Track to Achieve Goals .......................................................................4

     Program Did Not Use Advanced Funds in Timely Manner .....................................................5

     USAID/Guinea Did Not Approve Monitoring and Evaluation Plan in Timely Manner .............. 6

     Implementer Did Not Document Some Program Activities Sufficiently ...................................7

Evaluation of Management Comments....................................................................................9

Appendix I—Scope and Methodology ...................................................................................10

Appendix II—Management Comments ..................................................................................12




Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
AOR             agreement officer’s representative
CENI            National Independent Electoral Commission
CEPPS           Consortium for Elections and Political Process Strengthening
FY              fiscal year
IFES            International Foundation for Electoral Systems
M&E             monitoring and evaluation
NDI             National Democratic Institute for International Affairs
OIG             Office of Inspector General
RIG             Regional Inspector General
SUMMARY OF RESULTS
The West African nation of Guinea ranks 178 of 187 countries on the United Nations’ Human
Development Index, used to measure average achievement in three basic dimensions of human
development: life expectancy, educational attainment, and command over the resources
needed for a decent living. This ranking qualifies Guinea as a nation with “low human
development.”

Furthermore, according to Transparency International’s 2013 Corruption Perception Index,
which measures the perceived levels of government corruption in countries, Guinea ranks
150 of 177 countries with a score of 24. A score less than 50 implies the perception of serious
corruption problems that continue to damage societies around the world and could include the
abuse of power, secret deals, and bribery.

Although Guinea received its independence from France in 1958, its first presidential election
was held more than 50 years later on June 27, 2010. Because no one candidate received a
majority of votes, the country did not declare an official winner until November 16, 2010, after a
run-off election on November 7. The delays in announcing the first president were attributed to
civil unrest caused by ethnic tensions, mistrust, and clashes between the police and rival groups
of supporters.

The next milestone in Guinea’s road to democracy was to conduct fair, transparent legislative
and local elections, planned for November 2013 and early 2014, respectively. To help Guinea
reach this milestone, on September 27, 2013, USAID/Guinea awarded a 3-year, $9 million
cooperative agreement to Consortium for Elections and Political Process Strengthening
(CEPPS) 1 to implement the Elections and Political Process Strengthening Program III. As of
February 28, 2014, the mission obligated $3.1 million and disbursed about $586,000.

The overall goals were to support the Guinean Government to (1) strengthen political processes
and (2) develop capacity of new legislators and National Assembly 2 staff. To achieve these
goals, the program planned to implement activities under four main objectives:

        •   Objective 1: Strengthen the capacity of political parties so they are more
            inclusive of marginalized groups, including women and minorities.

        •   Objective 2: Strengthen the institutional capacity of the National Independent
            Electoral Commission (CENI) and its technical staff to credibly and
            transparently administer elections.

        •   Objective 3: Provide technical assistance to newly elected deputies and the
            permanent staff of the National Assembly.
1
  According to CEPPS’ fiscal year (FY) 2012 financial report, the International Republican Institute, the
International Foundation for Electoral Systems (IFES), and the National Democratic Institute for
International Affairs (NDI) created the organization on September 26, 1995, to submit applications for
grant awards to USAID in implementing political and electoral strengthening programs in foreign
countries.
2
  According to The World Factbook, Guinea’s legislative branch, referred to as the People’s National
Assembly, is composed of 114 seats elected by a mix of direct popular vote and proportional party list
appointments.

                                                                                                       1
       •   Objective 4: Build capacity of local civil society organizations working to
           promote government oversight to enhance service delivery and election
           monitoring.

Examples of program activities include providing technical assistance to operate the call center
within CENI’s Transparency Department. The center, shown in the photo on the left below,
receives, analyzes, and transmits information between CENI and election monitors and
observers. In addition, the program planned to provide support to the seven civic and electoral
education centers located in each region of Guinea; the photo on the right below shows the
center in Kindia. Activities that take place in the centers include training sessions that inform
voters of their rights and the voting process.




The program gave technical assistance to the      The program planned to support this civic
call center at CENI’s office in the capital of    center in Kindia Region. (Photo by RIG/Dakar,
Conakry. (Photo by RIG/Dakar, March 24, 2014)     March 31, 2014)

The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit as part of its FY 2014
audit plan to determine whether USAID/Guinea’s Elections and Political Process Strengthening
Program III was achieving its goals to strengthen political processes and develop legislative
capacity.

Based on program interventions so far, the mission was not on track to achieve its goals under
the current agreement (page 4). Mission officials did not revise the annual work plan to align
program activities with political realities in Guinea that were causing delays in implementing
activities. For example, CEPPS planned to start activities with the expectation that Guinea’s
first democratically elected National Assembly would be seated by the end of November 2013.
However, the elected officials did not take office until January 2014.

In addition, the audit found the following problems that USAID/Guinea should address to
improve program performance.

•   The program did not use advanced funds in a timely manner (page 5).

•   USAID/Guinea did not approve the monitoring and evaluation plan in a timely manner
    (page 6).

•   Implementers did not document some program activities sufficiently (page 7).


                                                                                               2
To improve program performance, we recommend that USAID/Guinea:

1. In coordination with CEPPS, revise the program work plan to achieve its goals based on
   political realities in the country (page 5).

2. Document an assessment to determine whether program activities are viable given political
   realities in the country, and modify the agreement to update program activities and funding
   accordingly (page 5).

3. In coordination with USAID/Senegal’s Regional Financial Management Office, review and
   document program disbursements as of February 28, 2014, to confirm that funds were used
   for immediate disbursement needs, and collect any identified excess funds (page 6).

4. In coordination with USAID/Senegal’s Regional Financial Management Office, implement
   procedures that require CEPPS to comply with USAID’s advanced funds policies, and verify
   and document on a semiannual basis that advanced funds are used for immediate
   disbursement needs (page 6).

5. In coordination with CEPPS, approve a monitoring and evaluation plan with program
   indicators that align with the activities included in the work plan and integrate gender-
   disaggregated targets when applicable (page 7).

6. Implement procedures to verify that CEPPS collects and retains appropriate, sufficient
   evidence to document program activities (page 8).

Detailed findings appear in the following section, and the scope and methodology appear in
Appendix I. Management comments, without attachments, are in Appendix II, and our
evaluation of them is on page 9.




                                                                                            3
AUDIT FINDINGS
Program Was Not on Track to
Achieve Goals
According to USAID’s Automated Directives System (ADS) 203.3.2, “Performance Monitoring,”
looking at the results of each activity helps determine the extent to which a program progresses
toward its goals. Furthermore, missions analyze data to help make judgments about program
outcomes to improve effectiveness and inform decisions about current and future programming.
To that extent, mission officials designed 28 activities to achieve goals for phase I of the
elections program and should have started or completed 17 of them as of February 28, 2014.

Additionally, ADS 202.3.7.3, “Comparing Planned Versus Actual Expenditures,” states that a
comparison of planned versus actual expenditures is a valuable means of tracking a project’s
progress. Any variations between planned and actual expenditures could indicate that time has
slipped and targets are off track, or that planned outputs and results may require modification.

The program is not on track to achieve its goals. As of February 28, 2014, CEPPS implemented
only five activities as planned, four activities started late, and the remaining eight had not
started. (The table below shows the number of activities for the four objectives.) In addition,
5 months into the 18-month-long phase 1 (28 percent), CEPPS had spent only $586,000, or
19 percent, of the total estimated program costs of $3.1 million.

                        Number of Activities, as of February 28, 2014 (Audited)
                                                           Number of Activities
           Program Objectives                Started on
                                                             Delayed      Not Started     Total
                                                Time
 1. Strengthen the capacity of political
 parties so they are more inclusive of
                                                 1              0              3             4
 marginalized groups, including women
 and minorities.
 2. Strengthen the institutional capacity
 of the National Independent Electoral
 Commission and its technical staff to           1              3              1             5
 credibly and transparently administer
 elections.
 3. Provide technical assistance to newly
 elected deputies and the permanent              1              0              2             3
 staff of the National Assembly.
 4. Build local capacity of civil society
 organizations working to promote
                                                 2              1              2             5
 government oversight to enhance
 service delivery and election monitoring.
                    Total                        5              4              8            17

The program was behind schedule because mission officials did not revise the annual work plan
to align program activities with political realities in Guinea that delayed activity implementation.
For example, CEPPS planned to start three activities from the third objective when the National


                                                                                                  4
Assembly members were seated in November 2013. However, the members took their seats in
January 2014, 2 months behind schedule.

Mission officials determined that it was not prudent to revise the work plan because the election
results would not be final until the Supreme Court validated them. The agreement officer’s
representative (AOR) said CENI unofficially closed in October 2013 after the court validated the
results. Accordingly, the program delayed many activities directly related to working with CENI
because there were no government counterparts.

To further highlight the political constraints imposed on the program, CEPPS officials expressed
concerns that phase II, designed to strengthen the presidential election process, would be
delayed because the presidential election may not occur in 2015 due to the uncertainty of the
local elections.

Completing activities is critical to achieving results, and any delays in implementing them
provide an early warning that results may not be achieved as planned. Moreover, early action in
response to problems is essential in managing for results, and mission officials must make
adjustments when conditions warrant. This may include developing an entirely new program or
simply modifying and changing existing activities to achieve its goals. Therefore, we make the
following recommendations.

    Recommendation 1. We recommend that USAID/Guinea, in coordination
    with Consortium for Elections and Political Process Strengthening, revise the program
    work plan to achieve its goals based on political realities in the country.

    Recommendation 2. We recommend that USAID/Guinea document an assessment to
    determine whether program activities are viable given political realities in the country,
    and modify the agreement to update program activities and funding accordingly.

Program Did Not Use Advanced
Funds in Timely Manner
According to the program’s agreement, payment shall be made to the implementer by letter of
credit. 3 This is the Agency’s preferred method of advance payment because it results in the
shortest period of borrowing for the U.S. Treasury Department and therefore costs the least in
added interest charges to the Government. Further, USAID’s ADS 636.3.3.1, “Amount
Limitations,” states that advances shall be limited to the minimum amount needed for
“immediate disbursing needs,” defined as 7 days or less.

ADS 636.3.3.2, “Excessive Advances/Periodic Review of Requirements,” requires mission
controllers to periodically review advances for recipients to verify that the amounts were not for
more than needed. Furthermore, anything more than what was needed must be refunded to
USAID, except when the excess funds will be disbursed within 7 days, or when the amount is
less than $10,000 and will be disbursed within 30 days.

CEPPS officials could not provide documentation to confirm that the program used advanced
funds within 7 days of receipt. For example, we reviewed an advance of $197,000 received by
3
 A letter of credit is a financial instrument certified by USAID that authorizes a recipient to request an
advance payment. Using an automated Treasury system, a USAID implementer sends the request to the
U.S. Department of Health and Human Services, USAID’s servicing agent.

                                                                                                        5
the field office on January 24, 2014, and confirmed that the implementer conducted activities,
worth $66,625, February 19 through 28, 2014, more than 3 weeks after funds were received.

CEPPS officials said they could not provide the documents because “the program receives
drawdowns [advanced program funding] on an estimated basis ranging from 2-4 weeks in
advance and it would be difficult to identify which expenditures relate to the USAID advances.”
Furthermore, our review of the National Democratic Institute’s (NDI’s) financial procedures
manual corroborated that they make advance requests on a monthly basis according to field
budgets, and funds are not disbursed within 7 days. In addition, a CEPPS official said he was
certain the advances they received exceeded the amount of actual program expenditures, and
advances would not match expenditures because of the sluggish implementation of activities.

The program’s financial position and its activities are important to achieving desired results.
Though mission and CEPPS officials said the political environment in Guinea caused program
implementation delays, implementer officials should be able to link expenditures with
implementation activities. Mission officials cannot determine the financial and programmatic
impact a program will have when implementers do not use advanced funds for immediate
disbursement needs.

Moreover, missions cannot manage resources made available to them to achieve planned
outputs and results in a cost-effective, timely manner. If implementers do not return program
funds not needed for immediate disbursement needs, those funds cannot be put to better use.
Therefore, we make the following recommendations to address this problem.

   Recommendation 3. We recommend that USAID/Guinea, in coordination with
   USAID/Senegal’s Regional Financial Management Office, review and document
   program disbursements as of February 28, 2014, to confirm funds were used for
   immediate disbursement needs, and collect any identified excess funds.

   Recommendation 4. We recommend that USAID/Guinea, in coordination with
   USAID/Senegal’s Regional Financial Management Office, implement procedures that
   require Consortium for Elections and Political Process Strengthening to comply with
   USAID’s advanced funds policies, and verify and document on a semiannual basis that
   advanced funds are used for immediate disbursement needs.

USAID/Guinea Did Not Approve
Monitoring and Evaluation Plan in
Timely Manner
According to ADS 203.3.5, “Monitoring Activities,” USAID expects implementers to submit an
activity monitoring and evaluation (M&E) plan to AORs within the first 90 days of an award and
before the start of “major activity implementation.”

The election program agreement stated that CEPPS must submit a monitoring plan within
45 days of signing the award on September 27, 2013. As of February 28, 2014, more than
150 days after program start date, the AOR had not approved the M&E plan. CEPPS submitted
a plan on November 14, 2013, more than 45 days after signing the award.

The AOR said he did not approve the plan because it lacked required information and needed
multiple revisions. For example, on February 13, 2014, the AOR asked CEPPS to revise M&E

                                                                                             6
indicators to align with USAID/Guinea's country development cooperation strategy and foreign
assistance framework standard indicators. CEPPS officials submitted the revised plan on
March 21, 2014, and the AOR returned it again for additional revisions on March 26, 2014.

The M&E plan is important because it outlines key program activities and indicators that
demonstrate achievement of program goals. It also measures progress toward planned results
and identifies the cause of any delays or impediments during program implementation.
Consequently, the following problems occurred because mission officials did not approve the
M&E plan on time.

•   Six of 28 activities (21 percent) in the program’s activity work plan did not correspond with
    an indicator included in the M&E plan.

•   The units of measurement for two M&E plan indicators were not quantified to measure
    results effectively and mitigate subjectivity. For example, the unit for Indicator 2.1.2, Number
    of actionable recommendations to strengthen the electoral framework or the operational
    capacity of the CENI adopted by electoral stakeholders, is “the number of district
    recommendations.” However, the number of recommendations made by districts has no
    impact on the electoral framework. The number of implemented recommendations would be
    a more relevant unit of measurement for this indicator because it measures a discrete result
    that has been achieved toward the program objective.

•   Indicators did not have gender-disaggregated targets. Without data broken out by gender,
    the mission cannot track how effectively USAID assistance contributes to gender equality
    and helping women in the electoral process.

•   CEPPS and mission officials do not have the same time frame for the implementation of
    program activities. For example, according to the work plan, CEPPS would implement
    “Workshop on establishing a women’s wing” in February 2014. However, CEPPS officials
    said this activity was scheduled for March to June 2014.

Without addressing these problems, the program cannot effectively evaluate and analyze
progress toward achieving intended results. Therefore, we make the following recommendation.

    Recommendation 5. We recommend that USAID/Guinea, in coordination with
    Consortium for Elections and Political Process Strengthening, approve a monitoring and
    evaluation plan with program indicators that align with the activities included in the work
    plan, and integrate gender-disaggregated targets when applicable.

Implementers Did Not Document
Some Program Activities Sufficiently
ADS 203.3.11.1, “Data Quality Standards,” states that missions must be sure that the quality of
evidence during performance monitoring meets the five standards of data quality: validity,
integrity, precision, reliability, and timeliness. In addition, the AOR designation letter makes the
AOR responsible for monitoring the implementer's progress in achieving the objectives of the
program and for verifying implementation of activities funded by USAID.

While reviewing source information of implemented activities, the audit team determined that
support documents for activities 2.1.1., “Preparatory Meetings,” and 3.1.2., “Baseline

                                                                                                  7
Assessment,” were not sufficient. Although CEPPS officials provided copies of agendas for
these two activities, they could not provide documentation, like attendance sheets, as more
reliable sources of evidence that the activities occurred.

While the AOR said he conducted periodic site visits and weekly meetings with CEPPS chiefs of
party, CEPPS did not gather and retain documentary evidence of completed activities because
the AOR did not ask for attendance sheets or review other documentation to verify that certain
activities were completed during his site visits. The AOR said he did not know he was supposed
to ask for such documents.

Without effectively monitoring the program, mission officials cannot verify the reliability and
validity of evidence used to support completed activities. Moreover, mission officials may not be
able to collect reliable physical, documentary, or testimonial evidence to support program
activities. The lack of appropriate and sufficient documentation for two of the activities tested
does not provide reasonable assurance that program officials implemented them. Consequently,
we make the following recommendation.

   Recommendation 6. We recommend that USAID/Guinea implement procedures to
   verify that Consortium for Elections and Political Process Strengthening collect and
   retain appropriate, sufficient evidences to document program activities.




                                                                                               8
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Guinea agreed with all six recommendations. After
evaluating the comments, we acknowledge that the mission made management decisions on
Recommendations 2, 3, 4, and 6. A detailed evaluation of the comments follows.

Recommendation 1. USAID/Guinea officials received the revised work plan on May 22, 2014,
that reflected when program activities were or are scheduled to be completed. We reviewed the
revised plan and noted that the program either postponed activities or linked them to the
achievement of political milestones. However, mission officials did not provide evidence that
they approved the revised work plan. As a result, the mission did not make a management
decision on this recommendation.

Recommendation 2. Mission officials said they plan to perform an assessment to determine
whether program activities are viable given political realities in Guinea, and modify the
agreement to update program activities and funding, if necessary, by September 30, 2014. As a
result, we acknowledge that the mission made a management decision.

Recommendation 3. USAID/Guinea officials said they would conduct a review of program
expenses from inception to February 28, 2014, to determine whether program officials used
funds for immediate disbursement needs. Based on this review, mission officials plan to
determine the allowablity of funds not used for immediate disbursement needs by
September 30, 2014. Accordingly, we acknowledge that the mission made a management
decision.

Recommendation 4. Mission officials said they would take appropriate actions that include the
agreement officer’s determination of a waiver or adherence to agency policies. Additionally, the
officials said they would develop a plan that would review disbursements noted on implementer
quarterly financial submissions to ensure compliance with USAID’s advanced funds policies.
The target date for this action plan is September 30, 2014. As a result, we acknowledge that the
mission made a management decision.

Recommendation 5. USAID/Guinea officials received a revised performance monitoring plan
on April 11, 2014. However, our review of this plan identified that four indicators do not have
gender-disaggregated targets, and one activity in the work plan could not be matched with an
indicator from the revised performance monitoring plan. Consequently, the mission did not make
a management decision for Recommendation 5.

Recommendation 6. Mission officials said they would implement a plan to verify, on a sample
basis, the accuracy of each activity indicator by September 30, 2014. Therefore, we
acknowledge that the mission made a management decision.




                                                                                              9
                                                                                     Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis.

The purpose of this audit was to determine whether USAID/Guinea’s Elections and Political
Process Strengthening Program III was achieving its goals to strengthen political processes in
Guinea and develop capacity of new legislators and National Assembly staff. The mission
awarded CEPPS a 3-year cooperative agreement for approximately $9 million on September
27, 2013. As of February 28, 2014, USAID/Guinea had obligated $3.1 million and disbursed
about $586,000. The audit team tested $66,625, or 11 percent, of that disbursement.

The audit covered the period from when the program started on September 27, 2013, to
February 28, 2014. In planning and performing the audit, we assessed management controls
related to documentation and data verification; reporting; supervisory and management review
of program processes and activities; and establishment and review of performance measures
and indicators. We assessed the following significant controls: the program’s M&E plan, annual
work plans, quarterly report, and CEPPS’ agreement.

We conducted audit fieldwork from March 24 to April 9, 2014, at USAID/Senegal,
USAID/Guinea, and in the offices of CEPPS and CENI in Conakry. We visited one civic
education center in the region of Kindia.

Methodology
To answer the audit objective, we interviewed personnel from USAID/Guinea, CEPPS, as well
as government officials. We reviewed reports and files that the mission and CEPPS maintained
as part of their program monitoring activities. We reviewed the agreement, the mission’s
performance management plan, CEPPS’ annual work plan, and quarterly report to gain an
understanding of the program and how USAID/Guinea monitored and measured results. We
also reviewed the mission’s FY 2013 Federal Managers’ Financial Integrity Act assessment. We
reviewed applicable laws and regulations and USAID policies and procedures regarding the
program, including the agreement, the Government Accountability Office’s Government Auditing
Standards, and ADS Chapters 201, 202, 203, 303, and 636.

To assess whether the program was achieving its objective, we validated reported results for
17 activity indicators for capacity building and election monitoring activities that covered all
4 program objectives through February 28, 2014. We judgmentally selected these activities to
review because they had planned start dates at the time of fieldwork.

We validated CEPPS’s results captured in its monitoring and evaluation report with supporting
documentation, like attendance sheets, interviews with government officials, and our
observations during site visits. The audit team considered an activity indicator achieved if the

                                                                                             10
                                                                                       Appendix I


activity was completed, or started as planned, as of February 28, 2014. However, because only
5 of 17 indicators were completed, or started, as planned, we selected from those that reported
results. We considered the reported results for all indicators accurate. The results of our test
work cannot be projected to the population of program activities.

The program planned to provide assistance to seven civic education centers. The audit
judgmentally selected one in Kindia for a site visit based on health constraints caused by the
Ebola virus outbreak and geographic locations. To the extent possible, we verified support
activities and determined the extent to which the center was aware of the source of program
funding. The result of this visit cannot be generalized to the population of all centers supported.

In addition, we inspected financial support documents of three subgrant and workshop activities
worth $66,625, judgmentally selected based on monetary value. We considered the inspected
documents to be reliable and valid. The results of our test work cannot be projected to the
population of program expenditures.




                                                                                                11
                                                                                   Appendix II



MANAGEMENT COMMENTS


                                     MEMORANDUM

DATE:        June 16, 2014

TO:          Abdoulaye Gueye, Regional Inspector General/Dakar

FROM:        Michelle Godette, Mission Director, and USAID/Guinea /S/

REF:         RIG/Dakar Draft Audit Report No. 7-675-14-00X-P


 This memorandum transmits USAID/Guinea’s management comments to the subject
 RIG/Dakar Draft Audit Report. Thank you for sharing the draft report and providing us the
 opportunity to offer clarifications and our response. We view audits as an opportunity to
 improve USAID programming and accountability. Before addressing the six
 recommendations put forth by the subject draft report, we would like to take the opportunity
 to provide clarifications regarding some of the information presented in the report.

I.     CLARIFICATIONS

 Terms of Cooperative Agreements: Cooperative agreements bring with them some
 measure of flexibility to modify programs and adjust for evolving development contexts in
 complex environments. As an Assistance mechanism, cooperative agreements can produce
 impressive development results and maintain a great deal of accountability when the
 implementing partner project team is effective and has good leadership. In cases in which
 implementation meets internal challenges, the nature of cooperative agreements, as
 development assistance as opposed to contracting, can make it more difficult for USAID to
 bring about swift changes in project management, especially where staffing is concerned.
 USAID/Guinea believes that it is important to consider the context – opportunities and
 constraints – of working under cooperative agreements. Substantial involvement from the
 Mission side has always been required and productive in reviewing, editing and amending
 the partner’s technical and financial submission. Although CEPPS partners are US based
 experienced organizations with USAID, the Agreement Officer’s Representative (AOR) has
 always worked closely with the partners to ensure the basic knowledge and skills needed to
 effectively perform its role by adapting a responsive work plan and a result-oriented



                                                                                            12
                                                                                          Appendix II


 Performance Monitoring Plan (PMP) and Monitoring & Evaluation M&E plan to the
 complex Guinean context.

 Development Context: It is important to highlight the development context, as it effects
 implementation and can engender successes or set-backs. Adjustments are made to address a
 changing context throughout the life of any agreement. Many factors, both within and outside
 of USAID control, impact the use of resources and our ability to achieve the exact results as
 originally anticipated in an activity design. For example, the Guinean legislative elections
 were scheduled eight times since November 2011 before being held on September 2013 after
 several violent sociopolitical unrests. Under the current award being audited, the SELP
 program has planned to support the Guinean local and communal elections, which was
 planned to take place during the first quarter of year 2014. But to date, there is still no official
 schedule.

II.   USAID/GUINEA RESPONSE TO THE AUDIT FINDINGS AND
      RECOMMENDATIONS

 Finding: Program Was Not on Track to Achieve Goals

 Recommendation 1: We recommend that USAID/Guinea, in coordination with Consortium
 for Elections and Political Process Strengthening, revise the program work plan to achieve
 its goals based on political realities in the country.

 USAID/Guinea’s position on the finding and Recommendation 1: USAID/Guinea
 concurs with the finding and a revised work plan has been approved which shows adjusted
 annual work plan target dates to reflect when program activities were completed (will be
 completed) .

 Action Taken/Planned:
 Following the partner’s initial technical submission in November 2013, USAID Guinea has
 continuously worked with the Consortium to revise the program work plan, Performance
 Monitoring Plan (PMP), Monitoring & Evaluation (M&E) and branding so as to meet and
 adapt the moving target. A Requisition for Modification through GLAAS action was initiated
 to include the amendments to the award. The work plan was approved by the Agreement
 Officer’s Representative (AOR) on January 27, 2014 and was revised in May 2014. A revised
 Performance Monitoring Plan (PMP), incorporating USAID’s comments was submitted and
 approved by Agreement Officer’s Representative (AOR) on April 11, 2014, while the BSMP
 was approved on May 15, 2014 (revised work plans attached).

 USAID/Guinea agrees with this recommendation, which is reinforcing its substantial
 involvement position through constant monitoring of deliverables and requests that a
 management decision be issued and Recommendation 1 closed upon issuance of final
 report.



                                                                                                    13
                                                                                     Appendix II




Recommendation 2: We recommend that USAID/Guinea document an assessment to
determine if program activities are viable given political realities in the country, and modify
the agreement to update program activities and funding accordingly.

USAID/Guinea’s position on the finding and Recommendation 2:
USAID/Guinea has conducted several assessments including the baseline survey for USAID
Guinea strategy of Advanced Democratic Governance in March 2008, the USAID Guinea
Democracy and Governance Assessment in November 2011, the Faisons-Ensemble
(governance) Project Evaluation in 2013 and the Reinforcement of the Confidence of
Political Parties and the Electorate (RECOPPEL) of CEPPS previous award in November
2013. All the preceding assessments have identified governance as the main issue that needs
to be addressed through the promotion and reinforcement of a continuing democratic rule.
After more than fifty years of autocratic rules, the transition to democratic governance and an
effective rule of law still remain a challenge for Guineans to overcome. USAID/Guinea
believes that a continuous support to strengthen election and legislative processes will
contribute to develop and sustain a durable democratic culture in Guinea. In addition the US
Ambassador has requested that USAID continue to provide assistance to the electoral process
with the understanding that activities and the work plan continually have to be adjusted to
accommodate the political context. To fully support these efforts, the Mission will perform
the assessment recommended by the RIG and make any necessary modifications to the
current agreement in order to realign resources to achieve program goals given the political
environment.

Action Taken/Planned:
Upon completion of CEPPS II award, USAID Guinea initiated and funded self-led
institutional and operational assessments of the Election Management Body, a consortium of
civil society governance organizations; conducted an evaluation of the capacity of the newly
established National Assembly. The results of these assessments guided USAID / Guinea in
anticipating modification of its program based on the context by designing a new governance
program that builds on previous achievements. This new governance program (SELP –
Support Election and Legislative Processes) through the CEPPS mechanism aims to address
documented constraints and weaknesses due to field context and political realities. USAID
Guinea would like to capitalize, consolidate and expand on new activities through legislative
strengthening, institutional and policy reforms so as to better the governance architecture in
Guinea. USAID Guinea believes that a continuous support to strengthen election and
legislative processes will contribute to develop and sustain a durable democratic culture in
Guinea. As a result, USAID will perform an assessment to determine if program activities
are viable given political realities in the country, and modify the agreement to update
program activities and funding accordingly. This assessment will also determine whether
current program activities can be completed within the timeframe of the award and if any
additional adjustments are needed.


                                                                                              14
                                                                                     Appendix II


USAID/Guinea agrees with this recommendation and requests that a management
decision be issued and Recommendation 2 closed upon issuance of the assessment
report and modifies the agreement to update program activities and funding
accordingly as described above planned for September 30, 2014.

Finding: Program Did Not Use Advanced Funds in Timely Manner

Recommendation 3: We recommend that                USAID/Guinea, in        coordination with
USAID/Senegal’s Regional Financial Management Office, review and document program
disbursements as of February 28, 2014, to confirm funds are used for immediate
disbursement needs, and collect any identified excess funds.

USAID/Guinea’s position on the finding and Recommendations 3:
Per Automated Directives System (ADS) 636.3.3.2, Mission Controllers and the
M/CFO/CMP must ensure that outstanding advances for the contractors and recipients are
monitored on an on-going basis. The Mission has set up procedures and systems to comply
with this requirement especially for local organizations. For US organizations receiving
Letter of Credits (LOCs) under Cooperative Agreements and Grants, the Mission previously
relied upon the annual financial audit to ensure compliance with this requirement. However,
given the findings identified under this audit, the Mission has strengthened its procedures and
systems for monitoring compliance of this requirement for US organizations receiving LOCs
under Cooperative Agreements and Grants.

Action Taken/Planned:
USAID/Guinea OFM has developed and implemented tracking tools to review and monitor
spending for awards using LOCs. Quarterly, draw-downs reported on the SF 425 form will
be compared to the spending of the contractor on the field, the agreed upon budget and
elapsed time. If spending is not in line with the draw-down, budget and elapsed time, then
additional explanation will be requested from the Grantee. If necessary, additional steps will
be taken based upon the quarterly analysis which includes requesting further documentation
or performing a financial review. We also modified our financial review procedures to
ensure US organizations receiving LOCs under Cooperative Agreements and Grants comply
with this requirement. In addition, the Mission will perform a financial review for Quarter 4
in FY 14 to confirm funds are used for immediate disbursement needs, and collect any
identified excess funds.

USAID/Guinea agrees with this recommendation and plans to perform a financial
review and monitor the issue quarterly. Therefore, we request that a management
decision be issued and Recommendations 2 closed (final action) after the Mission
conducts a review of program expenses from inception through February 28, 2014, and
determine if funds were used for immediate disbursements needs. For funds not used
for immediate disbursement needs, the mission will determine the allowability of these
expenses planned by September 30, 2014.




                                                                                              15
                                                                                 Appendix II




Recommendation 4: recommend that USAID/Guinea, in coordination with USAID/Senegal’s
Regional Financial Management Office, implement procedures that require Consortium for
Elections and Political Process Strengthening to comply with USAID’s advanced funds
policies, and verify and document on a semiannual basis that advanced funds are used for
immediate disbursement needs.

USAID/Guinea’s position on the finding and Recommendation 4:
As mentioned above under Recommendation 3, the Mission previously relied upon the
annual financial audit to ensure compliance with this requirement. As also mentioned above,
the Mission has strengthened its procedures and systems for monitoring compliance of this
requirement for US organizations receiving LOCs under Cooperative Agreements and
Grants.

Action Taken/Planned:
The actions taken above (Recommendation 3) predominantly address the findings of
Recommendation 4 to comply with USAID’s advanced funds policies, and verify and
document on a semiannual basis that advanced funds are used for immediate disbursement
needs. In addition, USAID/Guinea has requested that CEPPS review its disbursement needs
and respond in writing regarding their compliance with ADS 636.3. This response will also
include any necessary justifications if unable to comply with the seven day LOC requirement
to cover its immediate disbursement needs for this activity. Based upon CEPPS response,
USAID/Guinea will review it and take appropriate actions including the Agreement Officer’s
determination of a waiver or adherence of ADS 636.3 planned by September 30, 2014. In
addition, the Mission will develop a plan that would review disbursements noted on the SF
425 to ensure compliance with the advanced funds policies.

Therefore, USAID/Guinea agrees with this recommendation and will requests that a
management decision be issued upon the Agreement Officer’s determination of a
waiver or adherence of ADS 636.3 and preparation of a review plan which is planned
by September 30, 2014.

Finding: USAID/Guinea Did Not Approve Monitoring and Evaluation Plan in Timely
Manner

Recommendation 5: We recommend that USAID/Guinea, in coordination with Consortium
for Elections and Political Process Strengthening, approve a monitoring and evaluation plan
with program indicators that align with the activities included in the work plan, and
integrate gender-disaggregated targets when applicable.

USAID/Guinea’s position on the finding and Recommendation 5:
USAID/Guinea has worked closely with the partner to review, amend and adjust the program
work plan and performance monitoring and evaluation plan (Attachment II includes the


                                                                                          16
                                                                                     Appendix II


approved copies of these plans). USAID Guinea would like to draw attention to the fact that
the performance monitoring and evaluation plan was under review/revision by the partner to
take into consideration USAID’s third round of comments made to the initial submission
during the field work of this audit.

Action Taken/Planned
After several follow-ups with the CEPPS Partners, the finalized Performance Monitoring
Plan (PMP) was approved by the Mission on April 11, 2014 and is attached. The approved
monitoring and evaluation plan with program indicators is aligned with the activities
included in the work plan, and integrates gender-disaggregated targets when applicable.

Therefore, USAID/Guinea agrees with recommendation and requests that a
management decision be issued and Recommendation 5 closed upon issuance of the
final report.

Finding: Implementers Did Not Document Some Program Activities Sufficiently

Recommendation 6: We recommend that USAID/Guinea implement procedures to verify
that Consortium for Elections and Political Process Strengthening collect and retain
appropriate, sufficient evidences to document program activities

USAID/Guinea’s position on the finding and Recommendation 6:

USAID Guinea acknowledge and agree that the first two quarters of the award implementation
was very challenging for both USAID Guinea and the CEPPS partners due to the aftermath of
the organization of the legislative elections and attention was focused on building consensus
around the work plan both with the polarized National Assembly, CENI and political parties.
The Mission has scheduled a Data Quality Assessment (DQA) for August 2014 to validate
results to date and will adjust the award accordingly. As part of this exercise, the Mission also
plans to implement a plan to verify, on a sample basis, the accuracy of each activity indicator.



Action Taken/Planned:
The Mission has scheduled a Data Quality Assessment (DQA) for August 2014 to validate
results to date and will adjust the award accordingly. USAID/Guinea will also develop and
implement a plan to verify on a sample basis, the accuracy of each activity indicator.

USAID/Guinea agrees with the recommendation and requests that a management
decision be issued and Recommendations 6 closed upon issuance of final DQA report
and implementation of the sample plan which is planned for September 30, 2014.




                                                                                              17
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           http://oig.usaid.gov
